APPLICATION AND
SOLICITATION
DISCLOSURE
VISA PLATINUM/VISA PLATINUM REWARDS/VISA
PLATINUM CASH BACK
Interest Rates and Interest Charges
Annual Percentage Rate (APR) for
Purchases

Visa Platinum

0.00%

Introductory APR for a period of six billing cycles.

9.65% to 18.65%

After that, your APR will be
, based on your
creditworthiness. This APR will vary with the market based on the Prime
Rate.
Visa Platinum Rewards

0.00%

Introductory APR for a period of six billing cycles.

11.65% to 20.65%

After that, your APR will be
, based on your
creditworthiness. This APR will vary with the market based on the Prime
Rate.
Visa Platinum Cash Back

0.00%

Introductory APR for a period of six billing cycles.

10.24% to 19.24%

After that, your APR will be
, based on your
creditworthiness. This APR will vary with the market based on the Prime
Rate.
APR for Balance Transfers

Visa Platinum
0.00% Introductory APR for a period of six billing cycles.
After that, your APR will be 9.65% to 18.65%, based on your
creditworthiness. This APR will vary with the market based on the Prime
Rate.
Visa Platinum Rewards
0.00% Introductory APR for a period of six billing cycles.
After that, your APR will be 11.65% to 20.65%, based on your
creditworthiness. This APR will vary with the market based on the Prime
Rate.
Visa Platinum Cash Back
0.00% Introductory APR for a period of six billing cycles.
After that, your APR will be 10.24% to 19.24%, based on your
creditworthiness. This APR will vary with the market based on the Prime
Rate.

SEE NEXT PAGE for more important information about your account.
© CUNA Mutual Group 2009, 10, 12, 16 All Rights Reserved

01227196-MXC10-P-1-050317 (MXC101-E)

APR for Cash Advances

Visa Platinum
9.65% to 18.65%, when you open your account, based on your
creditworthiness. This APR will vary with the market based on the Prime
Rate.
Visa Platinum Rewards
11.65% to 20.65%, when you open your account, based on your
creditworthiness. This APR will vary with the market based on the Prime
Rate.
Visa Platinum Cash Back
10.24% to 19.24%, when you open your account, based on your
creditworthiness. This APR will vary with the market based on the Prime
Rate.

How to Avoid Paying Interest on
Purchases

Your due date is at least 25 days after the close of each billing cycle. We will
not charge you any interest on purchases if you pay your entire balance by
the due date each month.

For Credit Card Tips from the
Consumer Financial Protection Bureau

To learn more about factors to consider when applying for or using a
credit card, visit the website of the Consumer Financial Protection
Bureau at http://www.consumerfinance.gov/learnmore.

Fees
Transaction Fees
- Cash Advance Fee
- Foreign Transaction Fee
Penalty Fees
- Late Payment Fee
- Returned Payment Fee

$5.00 or 3.00% of the amount of each cash advance, whichever is greater
2.00% of each transaction in U.S. dollars
Up to $20.00
Up to $25.00

How We Will Calculate Your Balance:
We use a method called"average daily balance (including new purchases)."
Promotional Period for Introductory APR:
The Introductory APR for purchases will apply to transactions posted to your account during the first six billing cycles
following the opening of your account.
The Introductory APR forbalance transfers will apply to transactions posted to your account until\RXUVHYHQWKELOOLQJ
F\FOH
Effective Date:
The information about the costs of the card described in this application is accurate as of: April 09, 2020.
This information may have changed after that date. To find out what may have changed, contact the Credit Union.
For California Borrowers, the Visa Platinum, Visa Platinum Rewards and Visa Platinum Cash Back are secured
creditcards.Creditextendedunderthiscreditcardaccountissecuredbyvariouspersonalpropertyandmoney
including, but not limited to: (a) any goods you purchase with this account, (b) any shares you specifically
pledgeascollateralforthisaccountonaseparatePledgeofShares,(c)allsharesyouhaveinanyindividualor
jointaccountwiththeCreditUnionexcludingsharesinanIndividualRetirementAccountorinanyotheraccount
thatwouldlosespecialtaxtreatmentunderstateorfederallaw,and(d)collateralsecuringotherloansyouhave
with the Credit Union excluding dwellings. Notwithstanding the foregoing, you acknowledge and agree that
during any periods when you are a covered borrower under the Military Lending Act your credit card will be
secured by any specific Pledge of Shares you grant us but will not be secured by all shares you have in any
individualorjointaccountwiththeCreditUnion.Forclarity,youwillnotbedeemedacoveredborrowerif:(i)you
establish your credit card account when you are not a covered borrower; or (ii) you cease to be a covered
borrower.
Other Fees & Disclosures:
Late Payment Fee:
$20.00ortheamountoftherequiredminimumpayment,whicheverisless,ifyouareoneormoredayslateinmakinga
payment.
SEE NEXT PAGE for more important information about your account.
© CUNA Mutual Group 2009, 10, 12, 16 All Rights Reserved

01227196-MXC10-P-1-050317 (MXC101-E)

Cash Advance Fee (Finance Charge):
$5.00 or 3.00% of the amount of each cash advance, whichever is greater.
Returned Payment Fee:
$25.00 or the amount of the required minimum payment, whichever is less.
Card Recovery Fee:
$65.00.
Document Copy Fee:
$12.00.
Emergency Card Replacement Fee:
$150.00.
Rush Fee:
$15.00.
Representative-Assisted Expedited Payment Fee:
$5.00.

© CUNA Mutual Group 2009, 10, 12, 16 All Rights Reserved

01227196-MXC10-P-1-050317 (MXC101-E)

